                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

      Case Number: A-04020007
                                                                                   I          Page 1 of 1



           We received an allegation that the subject's1 NSF proposal2 contained an idea taken from another
           scientist's unpublished manuscript3 without appropriate attribution (intellectual theft).

           During our review of this matter, we learned that the scientist provided a copy of the manuscript
           to the subject's research group, a group with which he informally collaborated over the years
           because of their common research goals. We reviewed a copy of the manuscript, the NSF
           proposal, the published papers by the subject, the scientist, and the research group, and compared
           the specific idea presented in the manuscript with the alleged same idea in the proposal. We
           determined that the idea in the scientist's manuscript, although similar to the idea presented in
           the subject's NSF proposal, was part of the larger research effort that included the long-term
           development of hypotheses by the research group and the scientist. As such, the idea that was
           allegedly stolen from the manuscript was not clearly separable from the overall development of
           the hypotheses presented by the group, the subject, and the scientist. There was insufficient
           substance to pursue this allegation.

           This case is closed and no further action will be taken.




11'
  NSF OIG Form 2 (1 1/02)
